   Office of Inspector General

        Audit Report

  ADDRESSING UNDERLYING CAUSES FOR
NEXTGEN DELAYS WILL REQUIRE SUSTAINED
      FAA LEADERSHIP AND ACTION
        Federal Aviation Administration

         Report Number: AV-2014-031
        Date Issued: February 25, 2014
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Addressing Underlying Causes for                                      Date:    February 25, 2014
           NextGen Delays Will Require Sustained FAA
           Leadership and Action
           Federal Aviation Administration
           Report No. AV-2014-031

  From:    Jeffrey B. Guzzetti                                                        Reply to
                                                                                      Attn. of:   JA-10
           Assistant Inspector General
             for Aviation Audits

    To:    Federal Aviation Administrator

           Over the past 8 years, the Federal Aviation Administration (FAA) has been
           working to develop the Next Generation Air Transportation System (NextGen)—
           a multibillion-dollar program intended to fundamentally change air traffic
           management and meet anticipated surges in air travel. As required by law, 1 FAA
           developed the National Airspace System (NAS) Enterprise Architecture (EA)—a
           sweeping blueprint for making sound investments across FAA’s entire air traffic
           organization, including NextGen. The EA emphasizes investing in projects with
           reasonable costs and solid risk management strategies and includes specific
           milestones for acquisition, policy, and executive decisions needed to deliver
           NextGen capabilities.

           While FAA is making progress with elements of NextGen, our work continues to
           find longstanding problems with cost increases, schedule slips, and performance
           shortfalls with NextGen-related air traffic control projects. In 2010, FAA
           commissioned a study to determine how the Agency could better position itself to
           execute NextGen. 2 In September 2011, FAA introduced its Foundation for
           Success initiative, which included reorganizing the Agency’s structure and
           establishing a new Program Management Office (PMO) responsible for NextGen
           implementation and other major air traffic control acquisitions. Despite these


           1
             The Clinger-Cohen Act (formerly the Information Technology Management Reform Act), Pub. L. No. 104-106
           (1996); codified at 40 U.S.C. § 11101, et seq. (2011).
           2
             Between July 2010 and June 2011, the Monitor Group—a management consulting firm specializing in such areas as
           organization and leadership—studied FAA’s governance, processes, capabilities, and culture.
                                                                                                                    2


important steps, the Agency has made little progress in shifting from planning to
implementation and delivering benefits to airspace users.

Concerned about limited NextGen progress, the Chairmen and Ranking Members
of the House Transportation and Infrastructure Committee and its Subcommittee
on Aviation requested that we provide an update on FAA’s progress with key
NextGen decisions and examine the root causes for longstanding challenges.
Accordingly, we (1) determined FAA’s progress on key NAS EA decisions related
to achieving NextGen capabilities, (2) identified underlying causes for FAA’s
delays in advancing NextGen, and (3) assessed FAA’s recent reorganization to
improve the management and execution of NextGen initiatives.

We conducted our audit work in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology.

RESULTS IN BRIEF
From January 2009 through May 2013, FAA made 157 key NextGen-related
decisions in its NAS EA, including critical investment decisions for automation
systems that controllers rely on to manage air traffic, an important foundation for
NextGen. However, other key EA decisions have not yet been made, such as
investments needed for a NextGen weather-related system that was scheduled for
2010. In addition, FAA has deleted or replaced decisions without a clear
understanding of how postponing these decisions could affect NextGen’s
progress. Overall, the EA’s usefulness as a strategic planning tool for guiding
NextGen’s implementation has been limited due to (1) incomplete information on
decisions that have an impact on NextGen progress; (2) a lack of policy and
guidance that establish criteria for defining “high-priority” decisions; and
(3) unresolved design decisions that will determine NextGen capabilities, timing,
and costs, such as the level of automation that can reasonably be accommodated
by controllers.

Longstanding programmatic and organizational challenges—many of which we
have previously reported—further undermine NextGen’s progress. FAA’s
NextGen plans—which initially targeted completion for 2025 at a cost of
$40 billion—were overly ambitious, and FAA has yet to develop an executable
implementation plan that addresses costs and technology development and
integration. At the same time, key modernization projects that are needed to
implement NextGen capabilities, such as the En Route Automation
Modernization (ERAM) project, 3 have experienced delays and are not yet

3
  ERAM is a $2.5 billion program to replace and enhance the existing hardware and software at facilities that manage
high-altitude air traffic; FAA considers it a foundational component of NextGen and critical to meeting its goals for
increasing airspace capacity and reducing flight delays.
                                                                                                                     3


complete. An FAA-commissioned study4 and senior FAA officials cited
organizational culture as a major stumbling block to advancing NextGen. For
example, the study and officials indicated the Agency lacks a sense of urgency for
advancing NextGen and is resistant to large-scale change. Frequent turnover in
leadership along with fragmented accountability and authority have further
complicated FAA’s progress. These weaknesses have contributed to stakeholder
skepticism about NextGen’s feasibility and reluctance to invest, particularly
efforts that require airspace users to purchase and install costly new avionics in
their aircraft to achieve NextGen capabilities.

It remains unclear whether FAA’s recent reorganization—the Agency’s third
such reorganization in 10 years—will be adequate to meet NextGen’s complex
management needs. FAA’s decision to elevate the NextGen Office—creating an
Assistant Administrator for NextGen who reports directly to the Deputy
Administrator—may better position the Agency to bridge the gap between
maintaining daily operations and implementing new capabilities intended to
transform the NAS. In addition, FAA believes the newly established PMO will
centralize the management of key major acquisitions and enable the sharing of
best practices. However, FAA has been slow to fill key leadership positions and
has not clearly defined the relationships and decisionmaking authority among its
most senior leaders. The reorganization’s success will depend in part on
effectively linking the PMO and the NextGen Office—a relationship that is
evolving. Finally, FAA has not developed performance indicators to assess
whether the reorganization is achieving the expected outcomes.

We are making recommendations to FAA to provide greater visibility into critical
NextGen decisions and to assist in achieving a successful reorganization
outcome.

BACKGROUND
Over the next 2 decades, FAA expects air travel to increase substantially. To
address this surge, FAA has been working to develop NextGen, which is expected
to provide safer and more efficient air traffic management. NextGen involves a
significant overhaul of the NAS to shift from outdated ground-based air traffic
management systems to more effective satellite-based systems. In 2003, Congress
mandated 5 that FAA establish the Joint Planning and Development Office
(JPDO) and that it create and carry out plans for implementing NextGen by 2025.


4
  The Monitor Study team interviewed more than 100 FAA executives, former FAA employees, representatives from
the Department of Transportation, and other stakeholders. They also surveyed over 2,500 managers representing a
cross-section of the Agency, across lines of business and staff offices. The survey addressed FAA personnel’s view
points on barriers to performance.
5
  Vision 100—Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).
                                                                                                                   4


FAA’s NAS EA—a key strategic planning tool for transforming the Nation’s air
traffic system—includes 14 roadmaps with numerous NextGen integration and
investment decision points (DP). These decisions indicate FAA’s approval of (1) a
particular improvement/sustainment initiative, (2) an investment decision that
must precede implementation of an improvement initiative, or (3) the research
and/or analysis needed prior to an investment decision or implementation. The EA
and supporting roadmaps and decision points are approved annually by the Joint
Resources Council (JRC). 6

Since 2006, we have reported and testified extensively on FAA’s progress and
challenges with advancing NextGen. In 2008, we reported 7 that decisions on
transitioning to NextGen depend heavily on an EA, but the NAS EA did not detail
how FAA will complete the transition. In 2010 we reported 8 FAA had not made a
number of high-priority decisions for advancing NextGen that were scheduled for
2009. 9 Moreover, we identified a number of actions needed to move NextGen
from planning to implementation. Among them was setting realistic expectations
and firm requirements for what can be achieved in the mid-term and the
associated risks. A full list of our body of work to date can be found in exhibit C.

FAA HAS MADE SOME KEY NAS EA DECISIONS, BUT THE
IMPACT ON NEXTGEN PROGRESS IS UNCLEAR
From January 2009 through May 2013, FAA made 157 decisions in its NAS EA,
such as investments related to automation systems for controllers. However,
many other decisions remain unresolved or have either been deleted or replaced
without a clear understanding of the impact. Additionally, the EA’s usefulness as
a strategic planning tool is limited because it does not provide a complete picture
of all decisions critical to NextGen implementation, nor does it stipulate the
criteria for high-priority decisions. Ultimately, NextGen’s progress, benefits, and
expectations for transforming the NAS will be uncertain until FAA resolves
several critical design decisions, such as determining the level of automation that
can reasonably be accommodated by controllers.

NAS EA Continues To Evolve
Each year, FAA updates its NAS EA roadmaps and DPs to reflect adjusted
assumptions, changes in existing or planned systems, and other revisions that

6
  JRC is an FAA executive governance board responsible for the approval and oversight of major systems acquisitions.
7
  Air Traffic Control Modernization: FAA Faces Challenges in Managing Ongoing Projects, Sustaining Existing
Facilities, and Introducing New Capabilities, (OIG Report No. AV-2008-049), April 14, 2008. OIG reports are
available on our Web site at http://www.oig.dot.gov/.
8
  Timely Actions Needed to Advance the Next Generation Air Transportation System (OIG Report No. AV-2010-068)
June 16, 2010.
9
  We reported that the EA contained more than 340 key decisions to reach envisioned mid-term capabilities. FAA
identified 51 DPs for fiscal year 2009, but the Agency had only made 11 decisions.
                                                                                                                    5


affect its air traffic organization. The updates are approved by JRC and
communicated to stakeholders. According to FAA, changes in program funding,
approach, or available technology drive the annual updates.

Between January 2009 and May 2013, FAA completed 157 DPs (see table 1).
However, during this same period, as table 1 shows, 355 decisions originally in
the EA were deleted and 47 were replaced by another decision. 10

Table 1. Status and Evolution of Enterprise Architecture DPs

Status of Decision Points                                 January 2009              May 2013           Change
Active           Decision ongoing                                     262                  255                 -7
Completed        Decision reached                                       32                 189               157
Deleted          Decision removed from EA                               22                 377               355
Replaced         Replaced by another decision                            9                   56               47
Source: OIG Analysis of NAS EA DP Database

As of May 2013, FAA completed 45 of the 198 decisions that the EA identified
as “high-priority” at that time. For example, FAA completed a final investment
decision 11 for modernizing the current air traffic automation system used to
optimize the flow of aircraft as they approach and depart airports. FAA also
approved the final investment decision for NextGen transformational 12 programs,
such as for segment 2A of the System Wide Information Management (SWIM) 13
program.

Of the 56 high-priority decisions that remain active, 18 have been pushed out by
3 years or more from the original target dates. For example, the initial investment
decision for the NextGen Weather Processor—part of FAA’s efforts to improve
how weather information is used to reduce delays—was scheduled for 2010, but
is now expected in 2013. According to FAA, this target date was impacted by
technical issues and other delays in earlier acquisition decisions.



10
   The number of decisions in the EA is not static—new decisions are added while existing ones may be completed,
replaced, deleted, or delayed. Determining the number of additions and delays was not possible.
11
   A Final Investment Decision is an acquisition milestone decision where the FAA through its JRC approves an overall
investment and the cost and schedule parameters, as well as the specific performance requirements the program is
expected to accomplish.
12
   NextGen has six “transformational programs” that are to provide the technologies and infrastructure needed for
NextGen; these programs are Automatic Dependent Surveillance Broadcast (ADS-B), System Wide Information
Management (SWIM), Data Communications (DataComm), NextGen Network Enabled Weather (NNEW), NAS Voice
System (NVS), and Collaborative Air Traffic Management Technologies (CATM-T).
13
   As envisioned, SWIM will form the basis for a secure network that manages and shares information more efficiently
among all air traffic systems that will comprise NextGen. Segment 2A assists with transitioning to a common
messaging infrastructure.
                                                                                6


Although revisions to the EA are to be expected, FAA does not always clearly
justify the changes. For example:

• FAA deleted investment decisions for upgrading and evolving legacy NAS
  facilities to accommodate NextGen technologies. However, the Agency did not
  provide a clearly documented justification for this change or its impact on
  related decisions, such as needed investments for communications equipment.
• JRC approved FAA’s change to push 12 of 14 investment-related decisions
  from 2012 to 2013, but the explanation for the change and its related impact on
  other roadmaps—some of which contain the same decisions—is not clearly
  documented.
• JRC delayed a key decision for a runway safety tool that enables air traffic
  controllers to detect potential runway conflicts. Specifically, the decision
  involved determining whether the tool’s preliminary requirements and viable
  alternatives were sufficiently defined to move to an investment decision. Even
  though delaying this early decision would likely delay other related decisions,
  such as the investments needed, FAA did not reflect these changes in the EA.

Understanding the consequences of changes in decisions is key because the EA
should present integrated decisions and synchronized investments needed to
deliver NextGen capabilities. Without this information, FAA decisionmakers are
unable to fully assess risk, set priorities, and manage investment portfolios to
avoid potential delays in interdependent programs.

The NAS EA Has Limitations for Planning the Transition to NextGen
According to FAA, the NAS EA is intended for executives and stakeholders to see
the “big picture” and to understand when critical milestones for important
investments must occur. FAA relies heavily on the EA to prepare its annual
NextGen Implementation Plan—a key outreach vehicle for updating Congress and
the aviation community on the vision for NextGen and the commitments in
support of that vision.
However, the EA is insufficient as a strategic planning tool to manage NextGen
portfolios, reduce costs, prevent duplication of effort, improve efficiency and
interoperability, or communicate the Agency’s goals. For example, two factors
that limit the EA’s usefulness for transitioning to NextGen:

• Incomplete identification and status of critical NextGen-related decision
  points. FAA’s EA does not clearly identify all decisions related to achieving a
  particular NextGen capability or operational improvement. While the EA
  database includes a data field to identify NextGen-related decisions, the data
  and the status of decisions over time are not captured. Moreover, FAA
                                                                                                              7


     officials told us they are evaluating whether to continue to include this data
     field. However, without this information, FAA decisionmakers do not have a
     full and accurate picture of DPs critical to NextGen implementation, including
     schedule adjustments, to track its progress.

• Insufficient documented criteria for what constitutes a high-priority
  decision point. Although FAA has general guidance for EA development and
  identifies some DPs as high-priority, the Agency lacks a specific policy or
  guidance that establishes criteria for this designation. As a result, FAA
  decisionmakers lack reliable indicators for determining the highest priority
  operational improvements or investments that may be needed to implement
  NextGen. FAA officials acknowledged the need for documented criteria for
  designating DPs as high-priority.

Recognizing the importance of the NAS EA, Congress directed FAA in the FAA
Modernization and Reform Act of 2012 14 to have the National Research
Council 15 review the EA, NextGen’s software development approach, and safety
and human aspects in NextGen’s design. The review is underway.

Key Design Decisions That Will Shape the NAS EA and Future
NextGen Requirements, Timing, and Costs Remain Active
Several design decisions that are fundamental for shaping the EA and ultimately
defining key NextGen requirements and capabilities have not been completed.
For example:

• Division of Air-Ground Responsibility. FAA has not decided how much
  responsibility for tracking aircraft will be delegated to pilots in the cockpit
  versus the duties that will remain with air traffic controllers and ground
  systems.

• Level of Automation. FAA has not decided on the degree of human
  involvement in air traffic management and aircraft separation, which is key to
  establishing technical requirements for NextGen. Possible options range from
  today’s largely manual flight management to a mostly automated system
  centered on machine-to-machine exchanges with little controller involvement.

Without a clear vision of such requirements and capabilities, NextGen’s benefits,
timing, and costs—as well as its integration into the NAS—remain uncertain.



14
   Public Law 112-95, signed into law on February 14, 2012. The FAA Modernization and Reform Act of 2012
includes provisions intended to advance NextGen and enhance FAA’s management of its modernization efforts.
15
   The NRC is an organization established to improve government decisionmaking and public policy in matters
involving science, engineering, technology, and health.
                                                                                                                     8


PROGRAMMATIC AND ORGANIZATIONAL CHALLENGES
FURTHER UNDERMINE NEXTGEN PROGRESS
FAA’s lack of progress in advancing NextGen has been further undermined by
multiple underlying programmatic and organizational challenges, including the
lack of an executable plan, delays in fielding foundational air traffic management
hardware and software, frequent changes in senior leadership, and an industry
that remains reluctant to invest in NextGen.

FAA Continues To Lack an Executable NextGen Plan With Firm
Requirements
FAA’s NextGen plans—which initially targeted completion for 2025 at a cost of
$40 billion—have proven to be overly ambitious. Weaknesses in FAA’s plans
were demonstrated early on. Specifically, the Agency’s 2005 progress report to
Congress 16 did not address implementation costs, establish priorities, specify
sequencing for specific airports and airspace, or detail how needed technologies
would be developed or integrated. Instead, the report focused on eight broad
strategies for transforming the NAS, such as how to use weather information to
improve on-time performance.

Throughout FAA’s initial planning efforts, the Agency did not validate whether
planned programs were technically feasible and affordable for FAA and airspace
users, or even if they would provide needed capabilities. In 2009, FAA’s Portfolio
Analysis Report 17 showed that the Agency’s NextGen plans were not risk-adjusted
to reflect technological maturity and therefore could not be implemented as
promised. For example, the study concluded that NextGen, as originally
envisioned, was going to cost significantly more than the estimated $40 billion and
could not be implemented before 2035. Some estimates at that time suggested the
costs for the Government and airspace users would be as much as $150 billion—
with the cost to airspace users to equip with a wide range of NextGen avionics as
the major cost driver.
While the study led FAA to rethink what was realistically achievable by 2025, the
Agency continues to lack realistic strategies for achieving a system that can handle
three times more air traffic while reducing FAA’s operating costs. For example,
the study called for a disciplined approach to establishing new research priorities
and developing requirements for aircraft avionics versus ground systems, but these
issues remain unresolved.



16
  FAA, “2005 Progress Report to the Next Generation Air Transportation System Integrated Plan,” March 2006.
17
  JPDO, “Portfolio Analysis Report,” 2009. This analysis—done to meet OMB requirements for the fiscal year 2011
budget and for building a business case for NextGen—examined the costs, risks, and benefits of the JPDO Integrated
Work Plan targeted for 2025.
                                                                                                                      9


FAA’s inability to set realistic plans, budgets, and expectations for key NextGen
programs is largely due to a lack of firm requirements for NextGen’s most critical
capabilities. As we reported in April 2012, 18 requirements continue to evolve for
major transformational programs, 19 such as Automatic Dependent Surveillance–
Broadcast (ADS-B) and Data Communications (DataComm). Without firm
requirements, decisionmakers and stakeholders cannot develop reliable cost and
schedule estimates for achieving NextGen’s goals, much less assess progress and
risk.

Delays in FAA’s Modernization Programs Impact NextGen’s
Transformational Programs
FAA has gradually redefined NextGen to include key modernization programs.
While these programs were not initially part of the NextGen transformational
umbrella, they are considered “foundational” to moving NextGen forward.
However, including foundational programs poses the risk of shifting focus away
from FAA’s transformational NextGen goals because the foundational programs
are experiencing delays. Specifically, FAA cannot implement transformational
NextGen technologies, such as ADS-B and DataComm, without delivering new,
foundational automation platforms for controllers in terminal airspace (near
airports) and en route (high altitude) airspace.

FAA continues to face technical, cost, and schedule risks with two foundational
programs: the Terminal Automation Modernization Replacement (TAMR)
program and ERAM.

• TAMR aims to modernize or replace all of the automation systems that
  controllers rely on to manage traffic at terminal facilities with a single
  automation platform—the Standard Terminal Automation Replacement
  System. If effectively implemented, TAMR is expected to reduce Agency costs
  and facilitate the implementation of NextGen capabilities. 20 However, as we
  reported in May 2013, 21 the Agency faces significant cost, schedule, and
  technical risks to modernize these facilities.

• FAA originally planned to complete ERAM—a $2.5 billion system for
  processing en route flight data—by the end of 2010, but significant software
  problems impacted the system’s ability to safely manage and separate aircraft.
  FAA rebaselined the program in June 2011, pushing its expected completion to

18
   Status of Transformational Programs and Risks to Achieving NextGen Goals (OIG Report No. AV-2012-094), Apr.
23, 2012.
19
   See footnote 12.
20
   TAMR currently involves modernizing automation systems at 11 terminal facilities, 7 of which are the largest and
busiest in the Nation. FAA estimates this effort will cost $438 million through 2015.
21
   FAA’s Acquisition Strategy for Terminal Modernization Is at Risk for Cost Increases, Schedule Delays, and
Performance Shortfalls (OIG Report No. AV-2013-097), May 29, 2013.
                                                                                                                 10


       2014 and increasing cost estimates by $330 million. FAA is making
       considerable progress with fielding ERAM, but as FAA deploys ERAM to the
       Nation’s busiest facilities—such as those in the New York and Washington,
       DC, areas—it expects to identify new problems that could impact cost and
       schedule. Without ERAM, FAA will not realize the key benefits of NextGen’s
       transformational programs, such as new satellite-based surveillance systems
       and data communications for controllers and pilots.

In addition, planned operational concepts, such as Trajectory-based Operations
(TBO) 22—an ERAM capability that is foundational for other NextGen
initiatives—are turning out to be more difficult than expected to develop. In May
2009, FAA identified TBO as key to NextGen transformation. 23 However,
controllers and experts continue to raise concerns about ERAM’s capability to
model aircraft flight paths to predict aircraft collision conflicts and ensure
accurate handoffs as pilots transit from one facility’s controlled airspace to
another’s. The modeler software has often required adjustments to change the
flight plan trajectory and ensure accurate handoffs. Controllers confirmed that
improvements are needed to support current operations and NextGen capabilities
that use TBO.

FAA’s Organizational Culture and Frequent Changes in Leadership
Contribute to Difficulties in Advancing NextGen
FAA has been slow to embrace NextGen’s transformational vision. A study
commissioned in 2010 at FAA’s request, referred to as the Monitor Study, found
that the Agency’s organizational culture was resistant to the type of significant
change needed to achieve NextGen. 24 Officials we spoke with similarly cited a
lack of urgency and a resistance to change as stumbling blocks to advancing
NextGen.

The Monitor Study and interviews we conducted with FAA and industry officials
suggest that FAA’s highly operational, tactical, and safety-oriented focus can
create a risk-averse culture in which day-to-day operations have priority over more
strategic and policy-driven changes. Moreover, as we reported in 2010, 25 FAA has
historically not leveraged the work of other departments—such as the U.S.
Department of Defense’s research and development related to surveillance and
security of aircraft—indicating a culture that is reluctant to embrace outside
technologies.


22
   TBO focuses on more precisely managing aircraft from departure to arrival with the benefits of reduced fuel
consumption, lower operating costs, and reduced emissions.
23
   JPDO, “Communicating FAA’s NextGen Challenge,” May 28, 2009.
24
     See footnote 4.
25
  Timely Actions Needed To Advance the Next Generation Air Transportation System (OIG Report No. AV-2010-068),
June 16, 2010.
                                                                                                                 11


Organizational instability and gaps in leadership have also undermined FAA’s
efforts to advance NextGen. Since 2003, FAA has had five Administrators, and
was without a confirmed Administrator from December 2011 until January 2013.
In addition, FAA’s current Deputy Administrator was only recently appointed
after a 4-month vacancy, and the Assistant Administrator for NextGen position,
which had been vacant since December 2012, was not filled until September 2013.
Stakeholders we interviewed expressed that frequent turnover in senior leadership
has hindered a consistent message and a shared vision for NextGen, along with
limiting accountability for NextGen problems and lack of progress.

Delays in Defining NextGen Benefits Deepen Industry Skepticism
and Reluctance To Invest
NextGen’s success depends in part on obtaining buy-in from key stakeholders—
particularly airspace users who elect to purchase and install costly NextGen
avionics in their aircraft to achieve NextGen capabilities. Without widespread
equipage, such as advanced avionics that will be required for ADS-B and
DataComm, FAA will be unable to markedly increase capacity or save fuel
through NextGen systems.

FAA recognizes the importance of industry participation and engages stakeholders
through various forums, such as RTCA and the NextGen Advisory Committee
(NAC), 26 as it works to establish near- and mid-term objectives for NextGen.
Despite these efforts, consensus on NextGen priorities beyond the near-term has
not been reached, and questions remain between FAA and industry regarding what
benefits will be achieved and when. Moreover, as we have noted in numerous
reports and testimonies, FAA has not clearly defined the benefits of key NextGen
initiatives for enhancing capacity, reducing delays, and reducing operating costs.
As a result, airspace users are skeptical about FAA’s ability to deliver the
technologies and related benefits and remain reluctant to equip with costly
NextGen technologies.

Breakdowns in past FAA efforts have also fueled airspace users’ reluctance to
invest in new technologies—especially if the technologies may later be discarded.
For example, FAA abandoned a much smaller but similar effort to implement a
controller-pilot data link communications program 27 that was expected to play an
important role in enhancing air capacity and reducing flight delays. FAA and
industry jointly invested in the program and began using data linking on a limited

26
   The NAC is a Federal advisory committee that will develop recommendations for NextGen portfolios with an
emphasis on the midterm (through 2018). The NAC includes representation from affected user groups, including
operators, manufacturers, air traffic management, aviation safety, airports, and environmental experts.
27
   The controller-pilot data link communications program represented a new way for controllers and pilots to
communicate that was analogous to wireless email. The program was planned for use at en route centers that manage
high-altitude air traffic. Implementing this program—and obtaining expected benefits—required joint investments by
FAA and airspace users.
                                                                                                           12


basis. However, cost growth and technical issues prompted FAA to terminate the
program in 2005. User concerns and a lack of clearly defined benefits with
NextGen technologies have triggered debate among FAA and industry about the
need for equipage incentives, such as Government-backed grants or loan
guarantees.

In response to these and other concerns, FAA convened a joint FAA-industry
RTCA task force in 2009 to identify the major obstacles to NextGen
acceptance. 28 The task force framed several overarching issues for guiding FAA
and industry investments, such as:

• Users are willing to support FAA communications, navigation, and
  surveillance infrastructure programs that require user investments only if those
  programs provide a clear and unambiguous path to immediate and tangible
  benefits.
• Focusing on delivering near-term operational benefits, rather than on the entire
  infrastructure, would help gain operator confidence in FAA plans and
  encourage users to invest in NextGen. A key element for accomplishing this is
  to obtain industry and FAA agreement on common metrics to measure
  benefits.
•    Assigning responsibility, accountability, authority, and funding within the
     Agency is critical to accomplish all associated tasks (that is, developing
     procedures and policy) in order to achieve NextGen benefits.

In 2012, we reported 29 that while FAA quickly endorsed the task force’s
recommendations by incorporating them into its NextGen strategic plans and
budgets and establishing a mechanism for continued industry collaboration, the
Agency has made limited progress in implementing them. Continued uncertainty
about FAA’s efforts to resolve the safety, policy, training, and organizational
issues addressed by the task force could further deter industry’s commitment to
investing in NextGen technology.

A FULL ASSESSMENT OF FAA’S RECENT REORGANIZATION IS
PREMATURE, ALTHOUGH CONSISTENT LEADERSHIP AND
CLEAR ACCOUNTABILITY ARE KEY
FAA’s recent reorganization specifically aims to improve the management and
direction of NextGen. Several organizational changes—such as linking the PMO
and NextGen office and establishing performance indicators to measure

28
  RTCA, “NextGen Mid-Term Implementation Task Force Report,” September 9, 2009.
29
  Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports Could Delay Benefits (OIG
Report No. AV-2012-167), August 1, 2012.
                                                                                  13


progress—could better position FAA to successfully achieve NextGen goals.
However, it is too early to fully assess the reorganization’s effectiveness, in part
because FAA has been slow to fill key leadership positions and best practices
have yet to be captured or implemented.

FAA’s Reorganization To Better Manage NextGen
Before the reorganization, NextGen-related offices were within the Air Traffic
Organization (ATO) (see figure 1). According to FAA officials, this structure
limited NextGen’s visibility and authority to strategically manage complicated
programs that cut across lines of business.

Figure 1. NextGen Leadership Before Reorganization




   Legend: Red outline depicts NextGen-related organizations.
   Source: FAA

Under the 2011 reorganization, FAA elevated the NextGen offices by establishing
an Assistant Administrator for NextGen who reports directly to the Deputy
Administrator (see figure 2). In May 2012, FAA also established the PMO, which
reports directly to the ATO’s Chief Operating Officer.
                                                                                                                14


Figure 2. NextGen Leadership After Reorganization




     Legend: Red outline depicts NextGen-related organizations.
     Source: FAA

In FAA’s view, establishing a NextGen office that reports directly to FAA’s
Deputy Administrator better positions the Agency to move forward with NextGen.
FAA also pointed out that assembling the majority of NextGen programs in one
office facilitates communication and emphasizes accountability. Previously,
program managers were embedded in several air traffic offices, and program
management was viewed as an additional duty rather than a primary responsibility.

FAA also realigned its NextGen committee structure—reshaping the NextGen
Management Board (NMB) 30 to serve as the Board of Directors for oversight of
NextGen strategy and execution. The Deputy FAA Administrator—who also
serves as the Chief NextGen Officer—chairs this group. Before the reorganization,
there were two separate boards that provided oversight, status, prioritization, and
guidance on NextGen initiatives—NMB and the NextGen Review Board (NRB)
serving in a supporting role. However, the Monitor Study found that the boards
had overlapping responsibilities and members were unclear about their respective
roles regarding policy questions and decision rights. Therefore, the study
recommended eliminating NRB.

Success of FAA’s 2011 Reorganization Will Depend on Resolving
Critical Factors
FAA’s recent reorganization is the latest in several that have occurred since 2004
intended to assign responsibility, accountability, and authority for NextGen. For
example, in May 2008, FAA announced a reorganization of its NextGen efforts,
which included establishing a Senior Vice President for NextGen and Operations
Planning within the ATO and an office for NextGen Integration and
30
 The NMB was formally chartered in 2011. Comprised of representatives from all key FAA lines of business, the
NMB serves as an advisory committee to the Chief NextGen Officer—Deputy Administrator.
                                                                                   15


Implementation to support the Senior Vice President. The 2011 reorganization
has the potential for success, but FAA has been slow to fill key leadership
positions, and best practices have yet to be captured. Three critical factors will
ultimately determine the reorganization’s success.
The first factor involves the need for clear lines of responsibility, accountability,
and authority. Our audit work and the work of industry task forces have
repeatedly reported that satisfying this need is critical to successfully realize
NextGen benefits. However:
• FAA has not defined or communicated the relationships and decisionmaking
  authority among key players in the NextGen governance structure, including
  the Deputy Administrator, the Assistant Administrator for NextGen, the
  JPDO, and NMB. This is particularly important given that FAA’s culture
  focuses on running the air traffic system safely on a day-to-day basis and is
  slow to embrace the sweeping change needed to achieve NextGen.

• Decisionmaking authority has not been clarified in the roles and
  responsibilities of the Assistant Administrator for NextGen and the Deputy
  Administrator. The Monitor Study found that FAA’s ineffective
  decisionmaking process—one that lacked structure and was not well
  understood by stakeholders—was a top barrier to NextGen’s performance.
  Monitor recommended a process that allocated responsibility for the majority
  of policy-making decisions to the Deputy Administrator—the Chief NextGen
  Officer—while tactical decisions would be spread between the
  NextGen Office and the JRC.

•   FAA has not clearly defined accountability for program decisions. As part of
    the reorganization, FAA reshaped NMB’s role to provide oversight and ensure
    accountability of program integration. However, the Board’s charter—which
    has not been updated since November 2011—does not clearly delineate how
    oversight and accountability should be provided or applied to the decisions
    involved. NMB is chaired by the Deputy Administrator/Chief NextGen
    Officer and the charter describes it as a decisionmaking body, but it not clear
    on where those decisions will stand in relation to other key players, such as
    the Assistant Administrator for NextGen.

•   Finally, FAA has yet to redesignate the JPDO director as an Associate
    Administrator, which was called for by the FAA Modernization and Reform
    Act of 2012.
The second factor involves linking the PMO with the NextGen office to improve
coordination and share best practices. Linking the PMO with the NextGen office
                                                                                                 16


is critical to bridging the gap between planning, requirements, development, and
implementation. However:

• The PMO is still in the process of taking shape, and staffing remains a
  challenge. Key positions have only recently been filled, due in part to
  difficulties in finding individuals with the appropriate skill sets. Notably, as
  NextGen advances, FAA will need a sufficient workforce to manage FAA’s
  increasing acquisition workload. For example, in 2010, FAA awarded seven
  Systems Engineering contracts to augment FAA’s in-house technical and
  professional capabilities in support of NextGen and other key initiatives. 31
  These contracts will require an unprecedented level of FAA contract
  oversight.

• FAA has not ensured adequate support for managing interdependencies
  among diverse programs while integrating systems, such as linking legacy and
  new systems. For example, FAA is integrating satellite-based technologies
  (such as ADS-B) with new and existing controller automation systems.
  According to the Monitor Study, systems engineers with integration skills had
  previously been funneled to other roles where their skills were not well used.
  Under the reorganization, FAA attempted to create a central integration
  function, establishing within the PMO a Systems Integration and
  Requirements Analysis Directorate to act as the capabilities “integrator” for
  the program directorates. However, the PMO eliminated this directorate in
  March 2013, calling into question how FAA intends to ensure effective
  centralized integration of its most critical NextGen systems.

• FAA has not yet clarified or established policies for how best practices will be
  captured, communicated, and implemented. FAA envisions that by
  assembling the majority of NextGen programs within PMO, the Agency will
  achieve stronger program management, improved consistency and sharing of
  best practices, and better cost control.

The third factor involves developing performance indicators to measure the
Agency’s progress in achieving expected reorganization outcomes. Achieving
cultural change typically takes 5 or more years to fully implement. A key
component of cultural change is measuring adherence to mission, goals, and
objectives. However:

• The Agency has not developed performance indicators to assess whether the
  reorganization has improved (1) collaboration and coordination across Agency
  lines of business, (2) NextGen’s strategic direction, (3) program performance,


31
     Contracts were for services ranging from air traffic management to cost benefit analysis.
                                                                                                 17


     and (4) the use of best practices. The Monitor Study provided a baseline
     measurement of the organizational climate in the 2010 timeframe.

• FAA has yet to evaluate progress on the organizational transformation. In
  September 2012, FAA contracted with an outside consultant to evaluate four
  components of the Agency: structure, resources, competencies, and
  motivation. However, FAA put the contract on hold due to sequestration. 32

CONCLUSION
NextGen is essential for fundamentally changing air traffic management to meet
the future needs of air travel. FAA has made progress with some elements of
NextGen and demonstrated its commitment to improving the management of this
critical effort. While FAA’s NAS EA provides key decision points for
transforming the Nation’s air traffic organization, the overall blueprint provides
limited visibility into achieving future NextGen capabilities. Moreover, FAA’s
overly ambitious plans for NextGen targeted for 2025 are still proving difficult to
execute. Now that a Deputy Administrator—who will serve as the Chief NextGen
Officer—has recently been named, the opportunity exists to address many of the
barriers to progress, such as a lack of an executable plan and stakeholder
skepticism. Nevertheless, advancing NextGen will require sustained leadership
attention—with clear lines of accountability and authority—to set realistic
expectations and priorities needed to ensure prudent use of taxpayer investments.

RECOMMENDATIONS
We have made a number of recommendations over the years related to addressing
underlying causes for limited NextGen progress, such as managing NextGen
investments as portfolios, defining requirements, and reducing risk with
foundational and transformational programs. We encourage FAA to follow
through on those actions underway to implement those recommendations. In this
report, to provide greater visibility and understanding of decisions in the critical
path of NextGen, we recommend that FAA:

1. Document in its NAS Enterprise Architecture decision point database all
   decisions that are needed to achieve NextGen capabilities.

2. Develop criteria for high-priority decisions. The criteria should, at a minimum,
   consider those decisions critical to NextGen implementation and the related
   impact if a decision slips.


32
 P.L.112-25 (Aug.2, 2011). Due to sequestration, which began on March 1, 2013, FAA incurred a $637
million dollar reduction in funding for the remainder of fiscal year 2013.
                                                                                 18


3. Document in the updates to the NAS Enterprise Architecture roadmaps the
   rationale for pushing out, deleting, or changing a decision and its impact on
   other related decisions in the critical path of NextGen.

To assist in achieving a successful reorganization outcome, we recommend that
FAA:

4. Define and communicate the specific relationships and decisionmaking
   authority among the Deputy Administrator, Assistant Administrator for
   NextGen, JPDO, and NextGen Management Board.

5. Update the NextGen Management Board’s charter to clearly define its
   oversight role for NextGen.

6. Develop performance indicators to measure the progress of NextGen in
   meeting the intended goals from the reorganization. These indicators should
   include progress with regard to collaboration and coordination across Agency
   lines of business, the ability to set NextGen’s strategic direction, and program
   performance.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on November 8, 2013, and received its
formal response on January 28, 2014. FAA’s response is included in its entirety as
an appendix to this report. FAA concurred with four of our six recommendations
and partially concurred with two recommendations. FAA’s response to
recommendations 2 and 5 address the intent of those recommendations and we
consider them resolved but open pending completion of planned actions. We are
requesting additional information for recommendations 1, 3, 4, and 6, as detailed
below.
For recommendation 1, FAA concurred and requested that the recommendation be
closed based on its plan to combine the data collection for the NAS EA with the
data collection for the NextGen Segment Implementation Plan. However, it is
unclear when and if combining these collection efforts will result in more detailed
information about the impact of EA decisions on NextGen capabilities. Therefore,
we request that FAA submit a planned completion date for when data will be
added to the NAS EA that explicitly identifies how and when a decision point will
impact the delivery of NextGen capabilities.

For recommendation 3, FAA concurred and described the process the Agency uses
to capture the rationale for a decision point change and its potential impact on
achieving a technical capability. Although FAA stated that it documents this
                                                                                 19


process when creating a new decision point or baseline, it is not clear from FAA’s
response whether the NAS EA roadmaps also document the justification for these
changes, or their impact on related decisions, which is the intent of our
recommendation. As we note in our report, the NAS EA is intended for executives
and stakeholders to see the “big picture” and to understand when critical
milestones for important investments must occur. Accordingly, the EA’s
usefulness as a strategic planning tool to effectively manage NextGen portfolios is
diminished when information is omitted regarding why a decision has changed.
Therefore, we request that FAA clarify how the rationale for decision changes is
reflected in the NAS EA roadmaps.

For recommendation 4, FAA concurred and described the NextGen governance
structure and responsibilities of the Deputy Administrator, Assistant Administrator
for NextGen, JPDO, and NextGen Management Board in accomplishing the vision
and deployment of NextGen. However, FAA did not clearly describe the
decisionmaking authority among these key players. As we state in our report,
FAA’s decisionmaking process lacked structure and was not well-understood by
stakeholders, resulting in a significant barrier to implementing NextGen
capabilities. Therefore, we request that FAA clarify the specific decisionmaking
authority among each of these four key players.

For recommendation 6, FAA concurred in part, citing its Foundation for Success
initiative and an existing framework of milestones and governance to drive
investment decisions aligned with its NextGen strategy. FAA also referred to other
performance metrics in place to track NextGen’s progress overall. However, it is
not clear from FAA’s response how these mechanisms will allow the Agency to
specifically measure success in achieving the outcomes expected from elevating
the NextGen office and establishing the PMO, such as improved collaboration,
coordination, and strategic direction. Therefore, we request that FAA provide
specific information describing how it intends to measure and track whether its
reorganization efforts are better positioning the Agency to advance NextGen.

ACTIONS REQUIRED
FAA’s planned actions for recommendation 2 and 5 are responsive and we
consider these recommendations resolved but open pending completion of the
planned actions. We are requesting additional information for recommendations 1,
3, 4, and 6, as detailed above. In accordance with DOT Order 8000.1C, please
provide this information within 30 days of issuance of this report. Until we receive
this additional information, we consider these recommendations open and
unresolved.
                                                                            20


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Barry DeWeese, Program Director, at (415) 744-0420.

                                      #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                                          21



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit between July 2012 and November 2013 in
accordance with generally accepted Government auditing standards as prescribed.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusion based on our audit
objectives.
Our audit was conducted at the request of the Chairmen of the House Committee
on Transportation and Infrastructure and the House Subcommittee on Aviation to
update our June 2010 report. 33 Specifically, our audit objectives were to
(1) determine FAA’s progress on key NAS EA decisions related to achieving
NextGen capabilities, (2) identify underlying causes for FAA’s delays in
advancing NextGen, and (3) assess FAA’s recent reorganization to improve the
management and execution of NextGen initiatives.

To determine FAA’s progress on key NAS EA decisions related to achieving
NextGen capabilities, we obtained and analyzed applicable guidance and policy
regarding NAS EA decision points. We reviewed criteria and process for updating
the EA and discussed with FAA officials who maintain the decision point
database. Given that we relied on the EA decision point database for determining
the status of decisions, we performed a limited reliability test to include examining
documentation supporting any updates and the audit history files. Based on that
analysis, we determined the database to be sufficiently reliable for the purposes of
our audit. We then comparatively analyzed NAS EA decision points reports for
2009 and 2013 to determine the current status of the decision points identified in
the June 2010 OIG audit report. We reviewed available documentation on the
rationale for any deletions or other changes to decision points and the related
impact on other decisions. We obtained access to the FAA’s internal NAS EA
portal database to further review information regarding the status of decision
points. We also reviewed previous MITRE studies related to the NAS EA—
limitations and context for decision points. To obtain perspectives on these and a
number of related issues, to include decision point tracking and the EA’s
usefulness as a strategic planning tool, we met with FAA officials including the
Chief Architect, the Senior Acquisition Executive, former FAA officials
responsible for NextGen implementation, and MITRE. We also met with FAA
program managers and roadmap leads to understand their roles and responsibilities
and how they use the EA. In addition, we attended public meetings held to discuss
the National Research Council’s ongoing review of the NAS EA.
33
  Timely Actions Needed To Advance the Next Generation Air Transportation System (OIG Report No. AV-2010-068),
June 16, 2010.


Exhibit A. Scope and Methodology
                                                                                22


To identify underlying causes for FAA’s difficulties in advancing NextGen, we
reviewed previous OIG and Government Accountability Office (GAO) audit
reports and testimonies for a historical perspective on air traffic control
modernization program implementation challenges and to identify common
themes, such as organizational culture issues. We reviewed independent studies on
NextGen issues commissioned by FAA from the National Academy of Public
Administration (NAPA). We obtained and analyzed FAA’s original and current
NextGen plans to understand the extent to which the Agency validated whether
planned programs would provide needed capabilities, were technically feasible,
and would be affordable for FAA or airspace users. We also attended industry-
sponsored conferences and symposiums to gain a perspective of stakeholder
concerns regarding NextGen progress. In addition, we interviewed the RTCA Inc.
president and attended NextGen Advisory Committee (NAC) and subcommittee
(NACSC) meetings. During these meetings, we engaged industry members as
appropriate to obtain their perspective on NextGen progress and underlying causes
for limited progress. Moreover, we met with current and former FAA officials
responsible for NextGen planning and implementation to discuss NextGen
progress. See exhibit B for a complete list of organizations visited or contacted.

To review FAA’s recent reorganization to improve the management and execution
of NextGen initiatives, we examined the Monitor Study’s diagnostic survey results
as well as other past OIG and GAO audit reports that identified cultural issues and
internal studies commissioned by the FAA, such as NAPA’s Identifying the
Workforce to Respond to a National Imperative. We met with FAA officials (and
Monitor Group) to understand the Monitor Study’s results, rationale for the
organizational changes, and current status of these efforts. We analyzed previous
FAA reorganization efforts and organization charts from 2002 to 2012. We met
with FAA and industry officials to obtain perspectives on the outcome of previous
reorganizations as well as whether the current reorganization will better position
NextGen for success and challenges. We analyzed decisionmaking authority and
responsibilities for NextGen leadership before and after the reorganization to
understand changes and discussed with responsible FAA officials.




Exhibit A. Scope and Methodology
                                                                          23


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Headquarters:
•     Office of the Administrator/Chief of Staff
Air Traffic Organization/Program Management Office (PMO):
•     Office of the Vice President
•     Program Control
•     Air Traffic Systems
NextGen Organization:
•     Office of the Assistant Administrator/Deputy Administrator
•     Office of the Chief Scientist
•     Engineering Services
•     Advanced Concepts & Technology Development
•     NAS Lifecycle Integration
•     NextGen Performance and Outreach
Finance and Management:
•     Office of the Assistant Administrator
•     Acquisition and Business Services
•     Budget and Programs—Capital Budgets
Aviation Safety:
•     Office of the Assistant Administrator/Deputy Administrator
Other FAA Locations:
•     NextGen Branch, Southern Region – Flight Standards Division
Other Organizations:
•     Joint Planning and Development Office (JPDO)
•     MITRE Corporation/CAASD
•     National Air Traffic Controllers Association (NATCA) Headquarters
•     RTCA
•     Monitor-Deloitte (Formally Monitor Government Venture Services)
•     Aerospace Industries Association (AIA)




Exhibit B. Organizations Visited or Contacted
                                                                                          24


EXHIBIT C. OIG NEXTGEN-RELATED REPORTS AND
TESTIMONIES
Since 2006, our office has reported and testified extensively on FAA’s progress
and challenges with advancing NextGen. See below for a list of our NextGen-
related reports and testimonies. All OIG reports and testimonies are available on
our Web site at http://www.oig.dot.gov/.

2013
FAA’s Progress and Challenges in Advancing the Next Generation Air Transportation System
(OIG Testimony No. CC-2013-028), July 17, 2013
FAA’s Acquisition Strategy for Terminal Modernization is at Risk for Cost Increases, Schedule
Delays, and Performance Shortfalls (OIG Report No. AV-2013-097), May 29, 2013
Improvements to DOT’s Governance Processes Are Needed To Enhance Oversight of Major IT
Investments (OIG Report ZA-2013-057), March 27, 2013
FAA Has Not Adequately Implemented Security Requirements for Its En Route Automation
Modernization System (OIG Report No. FI-2013-028), December 19, 2012

2012
Weaknesses in Program and Contract Management Contribute to ERAM Delays and Put Other
NextGen Initiatives at Risk (OIG Report No. AV-2012-179), September 13, 2012
Update on FAA’s Progress and Challenges in Advancing the Next Generation Air Transportation
System (OIG Testimony No. CC-2012-027), September 12, 2012
Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports Could
Delay Benefits (OIG Report No. AV-2012-167), August 1, 2012
The Success of FAA’s Long-Term Plan for Air Traffic Facility Realignments and Consolidations
Depends on Addressing Key Technical, Financial, and Workforce Challenges (OIG Report No.
AV-2012-151), July 17, 2012
Status of Transformational Programs and Risks to Achieving NextGen Goals (OIG Report No.
AV-2012-094), April 23, 2012

2011
Progress and Challenges in Developing and Transitioning to the NextGen Air Transportation
System (OIG Testimony No. CC-2011-036), October 5, 2011
FAA’s Approach to SWIM Has Led to Cost and Schedule Uncertainty and No Clear Path for
Achieving NextGen Goals (OIG Report No. AV-2011-131), June 15, 2011
Actions Needed To Meet FAA’s Long-Term Goals for NextGen (OIG Testimony No. CC-2011-
016), February 16, 2011
Letter to Chairmen Oberstar and Costello and Ranking Members Mica and Petri Regarding
FAA's Efforts To Implement RTCA Task Force Recommendations for NextGen (OIG
Correspondence No. CC-2011-001), December 21, 2010
FAA Needs To Implement More Efficient Performance-Based Navigation Procedures and Clarify
the Role of Third Parties (OIG Report No. AV-2011-025), December 10, 2010


Exhibit C. OIG NextGen-Related Reports and Testimonies
                                                                                          25

FAA Faces Significant Risk in Implementing the Automatic Dependent Surveillance-Broadcast
System and Realizing Benefits (OIG Report No. AV-2011-002), October 12, 2010

2010
Timely Actions Needed To Advance the NextGen Air Transportation System (OIG Report No.
AV-2010-068), June 16, 2010
Challenges in Meeting FAA’s Long-Term Goals for the Next Generation Air Transportation
System (OIG Testimony No. CC-2010-048), April 21, 2010
Actions Needed To Meet Expectations for Next Generation Air Transportation System in the Mid-
Term (OIG Testimony No. CC-2010-001), October 28, 2009

2009
Challenges in Implementing Performance-Based Navigation in the U.S. Air Transportation
System (OIG Testimony No. CC-2009-086), July 29, 2009
Federal Aviation Administration: Actions Needed To Achieve Mid-Term NextGen Goals (OIG
Testimony No. CC-2009-044), March 18, 2009

2008
Status of FAA’s Efforts To Develop the Next Generation Air Transportation System (OIG
Testimony No. CC-2008-118), September 11, 2008
Key Safety and Modernization Challenges Facing the Federal Aviation Administration (OIG
Testimony No. CC-2008-070), April 17, 2008
Air Traffic Control Modernization: FAA Faces Challenges in Managing Ongoing Projects,
Sustaining Existing Facilities, and Introducing New Capabilities (OIG Report No. AV-2008-049)
April 14, 2008

2007
Actions Needed To Reduce Risk With the Next Generation Air Transportation System (OIG
Testimony No. CC-2007-047), May 9, 2007
Joint Planning and Development Office: Actions Needed To Reduce Risks With the Next
Generation Air Transportation (OIG Report No. AV-2007-031), February 12, 2007

2006
Perspectives on the Progress and Actions Needed To Address the Next Generation Air
Transportation System (OIG Testimony No. CC-2006-065), July 25, 2006
Observations on Progress and Actions Needed To Address the Next Generation Air
Transportation System (OIG Testimony No. CC-2006-032), March 29, 2006




Exhibit C. OIG NextGen-Related Reports and Testimonies
                                                                        26


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                           Title

Barry DeWeese                                  Program Director
Lillian Slodkowski                             Senior Analyst
Victoria J. Smith                              Senior Analyst
Marvin Tuxhorn                                 Senior Auditor
Wayne A. Van De Walker                         Senior Auditor
Sean Woods                                     Senior Auditor
Audre Azuolas                                  Writer-Editor
Karen Sloan                                    Communications Officer




Exhibit D. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                               27



                    Federal Aviation
                    Administration

Memorandum
Date:      January 28, 2014
To:        Jeffery B. Guzzetti, Assistant Inspector General for Aviation Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector General
           (OIG) Draft Report: Underlying Causes for NextGen Delays


The FAA is completing the Next Generation Air Transportation System (NextGen) foundational
infrastructure and implementing new systems, which will continue to increase the efficiency and
capacity of the National Airspace System (NAS). With the input of stakeholders, the FAA has
accelerated a few elements of NextGen including Performance Based Navigation (PBN).

While we appreciate the OIG’s recognition of our progress on many elements of NextGen, we
believe that this audit report fails to fully recognize the deliberative actions taken to enhance a
strong, efficient, and more effective leadership model for continuous program improvement. Our
efforts, including an internal organizational realignment, proactive stakeholder outreach and
collaboration, as well as the designation of a Chief NextGen Officer, clearly demonstrate an
unwavering commitment to NextGen success.

NextGen will provide a number of benefits for NAS users, our environment, and our economy.
FAA’s latest estimates predict that by the end of 2020, NextGen improvements will reduce delays
by 41 percent compared to today’s baseline. The FAA also estimates a 16 million metric ton
reduction in carbon dioxide emissions and a 1.6 billion gallon reduction in fuel use through 2020.
Delay reduction, fuel savings, and other efficiency improvements will provide an estimated $38
billion in cumulative benefits to aircraft operators, the traveling public, and the FAA.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Document in its NAS Enterprise Architecture decision point database all
decisions that are needed to achieve NextGen capabilities.

FAA Response: Concur. All decision points and NAS investments, by definition, have an
impact on the NextGen program. The Infrastructure Roadmaps depict the state of the NAS as it
transitions from the legacy NAS of the early 2000s to that envisioned in the NextGen Concept of
Operations (ConOps). From sustainment of legacy infrastructure that NextGen capabilities must
leverage, to technical refreshments that include new NextGen capabilities, to completely new



Appendix. Agency Comments
                                                                                        28

investments for systems dedicated to NextGen operational capabilities; all NAS investments
must be considered holistically.

In calendar year (CY) 2012, the NAS Chief Architect implemented capabilities within the NAS
Enterprise Architecture (EA) Portal and incorporated additional data coordination within the
NAS Infrastructure Roadmap update process to create a more holistic relationship between the
NAS Infrastructure Roadmap data (i.e., programs, projects, decision points, etc.) and the projects
outlined in the FAA Capital Investment Plan.

This year, by combining NAS EA data collection with NextGen Segment Implementation Plan
(NSIP) data collection, data attributes are being added to NAS EA data elements that explicitly
identify how and when a decision point will impact the delivery of NextGen products. The FAA
believes it has met the intent of this recommendation and requests that it be closed.

Recommendation 2: Develop criteria for high-priority decisions. The criteria should at a
minimum, consider those decisions critical to NextGen implementation and the related impact if
a decision slips.

FAA Response: Concur. While qualitative criteria for high-priority decisions have been briefed
to the roadmap development teams and to the Joint Resources Council (JRC), these criteria do
require additional definition and formal governance. Existing criteria and processes for
identifying high-priority decisions are currently being refined and will be documented in the next
release of the NAS Integrated Systems Engineering Framework (ISEF). The next update of the
ISEF is expected by January 31, 2014, and the updated decision point priority criteria will be
communicated during the CY2014 NAS Infrastructure Roadmap approval process.

Recommendation 3: Document in the updates to the NAS Enterprise Architecture roadmaps
the rationale for pushing out, deleting, or changing a decision and its impact on other related
decisions in the critical path of NextGen.

FAA Response: Concur. The NAS Infrastructure Roadmaps, an EA product, are used to define
the FAA’s plan for the enterprise level system and for project evolution over time. The
roadmaps are updated annually and visually depict the acquisition milestones (i.e. decision points
(DP), and synchronized investments needed to deliver NextGen. The NAS EA data and any
proposed changes, including changes to Infrastructure Roadmap DP, are closely managed per the
processes outlined in the NAS ISEF and Configuration Management Plan.

As part of the annual Infrastructure Roadmap update of the approved baseline for DP changes
identified, DP owners must submit change request forms to the NAS Chief Architect. The
change form captures the rationale for the change, the owner contact information, and the
proposed change is posted for comment. Once the comment period closes, the NAS Chief
Architect coordinates with program managers, Infrastructure Roadmap Domain Leads, and
Investment Portfolio Managers to review and adjudicate all change requests. Cross-
infrastructure domain and portfolio discussions and review sessions are held to understand the
impact that a change request may have on other projects and corresponding decision points.
After comment adjudication, the proposed DP changes are reviewed by the Technical Review


Appendix. Agency Comments
                                                                                       29

Board, the FAA EA Board, and the JRC. During the reviews, the approval boards discuss the
impact the DP changes may have on technical capability realization, the financial landscape, and
the internal resources required to complete the DP. Upon JRC approval of the Infrastructure
Roadmaps, the new decision point data are uploaded to the NAS EA Portal to be used as the new
baseline.

For any out-of-cycle changes and shifts or deletions to Infrastructure Roadmap DP, an
Architecture Change Notice (ACN) is submitted for concurrence to the NAS Chief Architect for
an Acquisition Quarterly Program Review or JRC Acquisition Management System Review.
The ACN details rationale for and NAS impact of the DP change. Specifically, it captures the
following:
     •   Project Identification: including the project name, the organization that manages the
         project, organization designation and Capital Investment Plan number.
     •   Brief Explanation of Proposed DP Changes: including executive level summary
         information outlining the proposed DP change to the current baseline Infrastructure
         Roadmaps, and the rationale for the change.
     •   Architecture Impacts: including the impacts a DP date change will have on the NAS,
         and any interdependent programs. The NAS EA Division coordinates with the project
         team to identify these impacts.
     •   Architect and Lead Information: including the names, organization titles, phone
         numbers and email addresses for the Project Lead responsible for the DP, the lead
         architect responsible for the architecture development for the DP, and any other
         applicable key points of contact (e.g., Systems Engineering, Finance, etc.).

Based upon these actions, the FAA requests that this recommendation be closed.

Recommendation 4: Define and communicate the specific relationships and decision making
authority among the Deputy Administrator, Assistant Administrator for NextGen, JPDO, and
NextGen Management Board.

FAA Response: Concur. The management of NextGen calls for a highly effective governance
structure, and the agency believes that such a structure is now in place. The agency has taken a
comprehensive, cross-agency portfolio approach to NextGen implementation that recognizes the
implementation of NextGen as an integrated effort, rather than a series of independent programs.
The FAA’s Deputy Administrator (ADA), who also serves as the Chief NextGen Officer, leads
these efforts and ensures focus on progress and achieving overarching results.

The ADA is responsible for the development and implementation of NextGen, oversees, and
provides direction to the Assistant Administrator for NextGen, the Director of the Joint Planning
and Development Office (JPDO), and the NextGen Management Board (NMB). Each of these
organizations assists the ADA in accomplishing the vision and deployment of all NextGen
programs and capabilities.




Appendix. Agency Comments
                                                                                         30

The Assistant Administrator for NextGen reports directly to the ADA and is responsible for
delivering enhanced capabilities, for providing systems engineering services, and for identifying
advanced concepts and systems. The Assistant Administrator for NextGen works directly with
the NextGen team and the Air Traffic Organization’s (ATO) Program Management Office
(PMO) to ensure the alignment of requirements, as well as program management and
deployment.

The ADA chairs the NMB, a team of FAA executives and outside subject matter experts. The
NMB meets monthly and ensures that NextGen capabilities are delivered in a timely,
coordinated, and cost-effective manner. The NMB is chartered to provide visibility across lines
of business and provides executive oversight of NextGen progress, performance metrics, and
makes strategic policy decisions required for fielding and implementation.

The JPDO is responsible for managing inter-agency partnerships and works collaboratively with
stakeholders to develop future technological requirements. These partnerships include private-
sector organizations, academia, and the other government departments and agencies (Department
of Transportation; Department of Commerce; Department of Defense; Department of Homeland
Security; National Aeronautics and Space Administration; White House Office of Science and
Technology Policy; and the Office of the Director of National Intelligence). The FAA believes
that it has clearly addressed this recommendation and requests that it be closed.

Recommendation 5: Update the NextGen Management Board’s charter to clearly define its
oversight role for NextGen.

FAA Response: Concur in Part. The NMB adopted a charter for oversight of NextGen in the
fall of 2011. Specifically, the NMB takes an enterprise approach to:
     •   Provide oversight of NextGen implementation by monitoring key performance metrics
         and implementation progress; and
     •   Resolve policy issues necessary for the successful implementation of NextGen.

As the federal official with overall responsibility for NextGen, the FAA’s ADA takes an active
lead in further defining the NMB’s role in oversight with the support of the Assistant
Administrator for NextGen. Since the NMB charter’s adoption, the FAA developed a reporting
mechanism to review all portfolios in the NSIP, which is the agency’s internal planning
document for NextGen that ties into the EA. This provides for an improved process targeted at
oversight and decision making for NextGen planning and implementation activities. The FAA
will review the current NMB charter before June 1, 2014, to determine whether or how the
charter should be revised in light of changes that have occurred over time. The FAA will update
the charter, if required, and advise the OIG when such a decision is made.

Recommendation 6: Develop performance indicators to measure the progress of NextGen in
meeting the intended goals from the reorganization. These indicators should address progress
with regard to collaboration and coordination across agency lines of business, the ability to set
the strategic direction of NextGen, program performance, and capturing of best practices.



Appendix. Agency Comments
                                                                                         31

FAA Response: Concur in part. In 2011, the FAA submitted a reprogramming request to the
Congressional Appropriations Committees to reorganize some of its internal functions. Known
as “Foundations for Success,” this effort was meant to better control costs, improve efficiency,
and ensure that decisions are made based upon what is best for the entire agency.

Effective September 23, 2011, the NextGen organization was elevated to an FAA staff office
separate from the ATO, with the NextGen Assistant Administrator formally reporting to the
FAA’s ADA. This reprogramming change was implemented to:
     •   Elevate NextGen’s visibility within the FAA;
     •   Reduce transactional distance between NextGen and non-ATO lines of business; and
     •   Validate stakeholders’ requests for organizational change.

In May 2012, the FAA created the PMO within the ATO. The PMO was created to consolidate
the majority of programs that specialize in program management into one organization. The
PMO was designed to:
     •   Improve consistency of program execution through robust information sharing with
         stakeholders;
     •   Institutionalize acquisition best practices and community review of lessons learned; and
     •   Form a collaborative working relationship with NextGen to help determine, from an air
         traffic perspective, how to merge NextGen’s vision with solutions that work in the
         operations environment.

As part of the Foundation for Success effort, the NextGen organization initiated a cross-agency
team to address the need for change in process, governance and culture that will result in “One
FAA Delivering NextGen.” The Ideas to In-Service (i2i) process was developed to define the
collaboration, structure, and coordination required of all FAA lines of business and staff offices
to integrate NextGen innovations while maintaining the current system. The i2i process
represents a movement away from a system-by-system requirements mentality to a capability
level across platforms. The i2i process seeks to provide the necessary structure and governance
to address changes to policy, procedures, programs, and systems within a NAS-wide context.

In April 2013, the key principles of i2i were integrated into the FAA’s Acquisition Management
System (AMS) to achieve:
Stable NextGen strategic direction
     •   The NAS ConOps is the governing document specifying how the NAS will evolve over
         time. Changes to the NAS ConOps are controlled by the NMB to ensure it remains
         stable, and only the best new concepts are added after careful analyses and validation.
         The NAS ConOps establishes the foundation for the FAA EA and the roadmaps and for
         all NAS-related investment activity.

Close cooperation between the PMO, NextGen organization, and other lines of business to
sustain safe and secure air transportation services while transitioning to NextGen.


Appendix. Agency Comments
                                                                                        32


     •   All lines of business have representation on key FAA governing bodies. This includes
         the JRC that governs FAA investment decisions, the NMB that governs FAA NextGen
         technical decisions, and the EA Board that manages the FAA EA.
     •   Changes to the NAS ConOps are coordinated and validated by “concept steering
         groups” with members representing all lines of business. Proven and validated changes
         are approved by the NMB and reviewed by the JRC to ensure they are both technically
         and financially sound.
     •   Once the ConOps changes are developed into new NextGen operational capabilities,
         they must again be reviewed and approved by the NMB and reviewed by the JRC to
         ensure that they are technically and financially sound.

The FAA believes these changes provide a sound framework of milestones and governance to
drive investment decisions aligned with NextGen strategy, monitor NextGen development and
deployment progress, and ensure collaboration and coordination across agency lines of business.

The FAA does recognize the value of establishing metrics to track NextGen’s progress, and in
the spring of 2013, the FAA began posting the NextGen Performance Snapshots on the FAA’s
website (http://www.faa.gov/nextgen/snapshots/). These targeted metrics clearly show FAA’s
progress in implementing NextGen across the country along with the measurable benefits that
are already occurring in the system. This tool allows both users of the system, including airlines,
airports, and the general public, to see the benefits of NextGen programs and technologies. In
addition, the website posts the PBN Implementation and Usage Dashboard, to track the rollout
and utilization of PBN procedures across the country. Finally, the FAA is working with the
NextGen Advisory Committee to develop additional metrics to measure NextGen as we
progress. The FAA believes it has met the intent of this recommendation and requests that it be
closed.




Appendix. Agency Comments
